APPENDIX A
SUPREME COURT OF CALIFORNIA
FINAL JUDGMENT
CASE S263130
SEPTEMBER 23, 2020

SUPREME COURT

35

FILED
SEP 2 3 2020
Jorge Navarrete Clerk

S263130

Deputy

IN THE SUPREME COURT OF CALIFORNIA
En Banc

MICHELLE STOPYRA YANEY, Petitioner,
v.
THE STATE BAR OF CALIFORNIA, Respondent.
The petition for writ of mandate is denied.

CANTIL-SAKAUYE
ChiefJustice

APPENDIX A PART 2
THE CALIFORNIA SUPREME COURT
DOCKET OF CASE S263130

%
37

Appellate Courts Case Information
Change court

Supreme Court

v

Court data last updated: 10/04/2020 02:10 PM

Docket (Register of Actions)
YANEY v. STATE BAR OF CALIFORNIA
Division SF
Case Number S263130
Date

Description

Notes

07/02/2020 Petition for writ of Petitioner: Michelle Stopyra Yaney
mandate/prohibition Pro Per
filed
07/02/2020 Forma pauperis
application filed
07/02/2020 Forma Pauperis
application granted
07/02/2020 Letter sent to:

Re: S263130 - Yaney v. State Bar of California Dear Ms. Yaney: This will acknowledge that
your petition for writ of mandate has been filed on July 2, 2020. Under the California Rules
of Court, 8.500(f), you must now submit an original proof of service reflecting service on the
State Bar of California. You will have 5 days from this notice to comply. Failure to do so may
result in the court striking your filing.

07/06/2020 Received:

Amended proof of service to State Bar of California. Michelle Stopyra Yaney, Petitioner Pro
Per

07/06/2020 Received

Additional Exhibits: Volumes 2-5 Michelle Stopyra Yaney, Petitioner Pro Per

07/06/2020 Received

Supplemental proof of service Michelle Stopyra Yaney, Petitioner Pro Per

07/06/2020 Received

Notice of Errata on exhibits: Volumes 2-6 Michelle Stopyra Yaney, Petitioner Pro Per

07/07/2020 Received

Letter dated July 7, 2020 from the State Bar of California indicating it does not intend to
submit an Answer to the Petition for Writ of Mandate filed by petitioner on July 2, 2020,
unless requested by the Court. State Bar of California, Respondent James Jou Chang,
State Bar

07/07/2020 Received:

Notice of Errata on Exhibits: Volumes 2-6 Michelle Stopyra Yaney, Petitioner Pro Per

07/07/2020 Received:

Supplemental proof of service Michelle Stopyra Yaney, Petitioner Pro Per

07/08/2020 Received:

Supplemental Declaration in Support of Writ of Mandate Michelle Stopyra Yaney, Petitioner
Pro Per

07/09/2020 Received

Second Supplemental Declaration Michelle Stopyra Yaney, Petitioner Pro Per

07/10/2020 Received

Letter dated July 10, 2020 Michelle Stopyra Yaney, Petitioner Pro Per

07/13/2020 Received

Letter dated July 13, 2020 informing the Court that the State Bar has granted petitoner's
request for further review in her complaint against attorneys. State Bar of California,
Respondent James Jou Chang, State Bar

07/20/2020 Received:
09/23/2020 Petition for writ of
mandate/prohibition
denied

Letter dated July 17, 2020 Michelle Stopyra Yaney, Petitioner Pro per
38

Click here to request automatic e-mail notifications about this case.

Careers | Contact Us | Accessibility | Public Access to Records | Terms of Use |
Privacy

© 2020 Judicial Council of California

APPENDIX A PART 3

RELIEF GRANTED BY RESPONDENT
THE STATE BAR OF CALIFORNIA
CASE 8263130

40

The State Bar
of California

OFFICE OF GENERAL COUNSEL

180 Howard Street, San Francisco, CA 94105

415-538-2381

james.chang@calbar.ca.gov

July 13, 2020
VIA ELECTRONIC FILING
Supreme Court of California
Clerk of the Court
350 McAllister Street
San Francisco, CA 94102
RE:

Michelle Stopyra Yaney v. The State Bar of California
California Supreme Court Case No. S263130

Dear Clerk of the Court:
Further to my letter of July 7, 2020,1 write to inform the Court that the State Bar has granted
petitioner's request for further review of her complaint against attorneys in State Bar case
numbers 19000041 (David Baron) and 19015840 (Thomas Slovak). A true and correct copy of
my email exchange with petitioner confirming this action is attached hereto.

ts
S3
O

O
<L>

603
S-i

ex

S3
00
<

Respectfully submitted,

O
A/

<L>
jc

James J. Chang
Assistant General Counsel
The State Bar of California

x>
T3
<D
>
0>

o

<u
i-l

a
<u

BS3

O
O

Q

San Francisco Office
180 Howard Street

www.calbar.ca.gov

Los Angeles Office
84S S. Figueroa Street

APPENDIX B
THE ORDER OF DENIAL OF AN ADA
ACCOMMODATION BY THE STATE BAR OF
CALIFORNIA, NOVEMBER 17 , 2020.

The State Bar
of California

42

180 Howard Street, San Francisco, CA 94105

OFFICE OF GENERAL COUNSEL

jay.lee@calbar.ca.gov
415-538-2444

Via US Mail and Email to; horse4ever22@vahoQ.rnm
November 17, 2020
Michelle S. Yaney
78365 Hwy 111, #302
La Quinta, CA 92253
Re. Request for Accommodation Under Title II of the Americans with Disabilities Act
Dear Ms. Yaney:
I am the acting ADA Coordinator for the State Bar of California (State Bar). Your November 7,
2020, letter to the Complaint Review Unit (CRU) was forwarded to me for response.
You have filed several complaints against California-licensed attorneys alleging that their
negligence during their representation of you resulted in your losing real and personal
property. These complaints were closed by the State Bar's Office of Chief Trial Counsel (OCTC)
because, even assuming that the allegations could be proven, your complaints would not
support findings that the subject attorneys violated the California Rules of Professional
Conduct. In closing your complaints, OCTC advised you of your right to seek a review of its
decisions with CRU, which you have done. The CRU review process involves non-OCTC
attorneys reviewing the case file including any documents submitted to independently evaluate
whether a complaint was properly closed. This review process is conducted in writing; thus,
complaining witness do not speak with reviewing attorneys via telephone.
In your letter, you volunteered that you suffer from a "mental anxiety disorder" and requested
that a CRU attorney speak to you verbally over the phone about your complaints. Specifically,
you state that you want to have a better understanding of why your complaints were closed by
OCTC as "understanding is something that helps minimize anxiety and without it I cannot cope."
Title II of the Americans with Disabilities Act (ADA), requires that public agencies, such as the
State Bar, provide accommodations to members of the public who are disabled, so that they
may have equal or equivalent access to the public services and programs that are offered to the
general public. The ADA requires, however, that qualified individuals with disabilities articulate
how their impairments limit their ability to access the public services they seek. In your letter,
San Francisco Office
180 Howard Street
San Francisco, CA 94105

www.calbar.ca .gov

Los Angeles Office
845 S. Figueroa Street
Los Angeles, CA 90017

43

you do not state that your .mpairment limits your ability to effectively communicate in writing
or to physically send documents or other supporting evidence via US Post or electronic mail.
Rather, you state that you wish to speak with a CRU attorney over the phone because doing so
will lessen your anxiety and hence allow you to cope better.
As previously noted, Title II of the ADA only requires the State Bar to accommodate your
anxiety disorder if that condition keeps you from accessing the CRU process. As you have
described it, the impact of your impairment, while regrettable, simply does not limit or restrict
your access to CRU or the above-described process it uses to review closed attorney
complaints.
Consequently, the State Bar denies your requested accommodation. Please feel free to contact
me at the address, email or telephone number above if you wish to discuss my decision.
Alternatively, if you contend the State Bar is violating the ADA by denying you accommodation,
you may make a direct complaint to the Disability Rights Section of the Civil Rights Division of
the U.S. Department of Justice, whose contact information follows:
U.S. Department of Justice
Civil Rights Division
950 Pennsylvania Ave., NW
4CON, 9th Floor
Washington, DC 20530
You may also submit a complaint on-line at https://civilrights.iustice.gov/reDort/.
Very Truly Yours,
/s/JayJ. Lee
Jay J. Lee
Assistant General Counsel and Acting ADA Coordinator

Additional material
from this filing is
available in the
Clerk's Office.

